        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Department of Energy's
American Recovery and
Reinvestment Act - Florida State
Energy Program




OAS-RA-10-12                          June 2010

                                 Department of Energy
                                   Washington, DC 20585

                                          June 7, 2010


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         American Recovery and Reinvestment Act – Florida State Energy
                         Program"

BACKGROUND

The Department of Energy's Office of Energy Efficiency and Renewable Energy (EERE)
provides grants to states, territories, and the District of Columbia to support their energy
priorities through the State Energy Program (SEP). The SEP provides Federal financial
assistance to carry out energy efficiency and renewable energy projects that meet each state's
unique energy needs while also addressing national goals such as energy security. Federal
funding is based on a grant formula that takes into account population and energy consumption.
The SEP emphasizes the state's role as the decision maker and administrator for the program.

The American Recovery and Reinvestment Act of 2009 (Recovery Act) expanded the SEP,
authorizing $3.1 billion in grants. Based on existing grant formulas and after reviewing state-
level plans, EERE made awards to states. The State of Florida's Energy Office (Florida) was
allocated $126 million – a 90-fold increase over Florida's average annual SEP grant of $1.4
million. Per the Recovery Act, this funding must be obligated by September 30, 2010, and spent
by April 30, 2012. As of March 10, 2010, Florida had expended $13.2 million of the SEP
Recovery Act funds. Florida planned to use its grant funds to undertake activities that would
preserve and create jobs; save energy; increase renewable energy sources; and, reduce
greenhouse gas emissions. To accomplish Recovery Act objectives, states could either fund new
or expand existing projects. As a condition of the awards, EERE required states to develop and
implement sound internal controls over the use of Recovery Act funds.

Based on the significant increase in funding from the Recovery Act, we initiated this review to
determine whether Florida had internal controls in place to provide assurance that the goals of
the SEP and Recovery Act will be met and accomplished efficiently and effectively.

RESULTS OF AUDIT

We identified weaknesses in the implementation of SEP Recovery Act projects that have
adversely impacted Florida's ability to meet the goals of the SEP and the Recovery Act.
Specifically:

       Florida used about $8.3 million to pay for activities that did not meet the intent of the
       Recovery Act to create new or save existing jobs. With the approval of the Department,
       Florida used these funds to pay for rebates related to solar energy projects that had been
       completed prior to passage of the Recovery Act;

       State officials did not meet Florida's program goals to obligate all Recovery Act funds by
       January 1, 2010, thus delaying projects and preventing them from achieving the desired
       stimulative economic impact. Obligations were delayed because Florida officials selected
       a number of projects that either required a lengthy review and approval process or were
       specifically prohibited. In June 2009, the Department notified Florida that a number of
       projects would not be approved; however, as of April 1, 2010, the State had not acted to
       name replacement projects or move funds to other projects;

       Florida officials had not ensured that 7 of the 18 award requirements for Recovery Act
       funding promulgated by the Department had been passed down to sub-recipients of the
       award, as required; and,

       Certain internal control weaknesses that could jeopardize the program and increase the
       risk of fraud, waste and abuse were identified in the Solar Energy System Incentives
       Program during our September 2009 visit to Florida. These included a lack of separation
       of duties related to the processing of rebates and deficiencies in the written procedures for
       grant managers to review and approve rebates.

From a forward looking perspective, absent aggressive corrective action, these weaknesses
threaten Florida's efforts to meet future Recovery Act goals. In response to our review, Florida
took corrective action to incorporate the additional award requirements in sub-recipient
documents. It also instituted additional controls to correct the internal control weaknesses we
identified. More, however, needs to be done with respect to Department oversight. This report
details the circumstances surrounding these program issues and outlines actions that, in our
opinion, will help Florida achieve its SEP Recovery Act-funded goals.

                            Solar Energy System Incentives Program

We found that Florida used Recovery Act funds to pay for rebates under a program that was in
place prior to the passage of the Recovery Act, and, as such, did not satisfy the Recovery Act
requirement of creating or saving jobs. In 2006, Florida's Solar Energy System Incentives
Program was created to provide a rebate for the installation of residential and commercial solar
energy systems through June 30, 2010. Rebates were paid through a rebate request process on a
first-come, first-served basis with unpaid rebates given priority when funds were received in the
following year. This program had been funded by Florida using State funds since its inception
but, in 2008, an overwhelming response to the program exhausted the State's 2008 funding and
created a backlog of rebate requests.

The Department subsequently approved the use of SEP Recovery Act funds to continue this
program. This included paying the backlog of rebates, some of which had been pending since
March 2008, and funding additional rebates for this program. In August 2009, Florida began
processing the $8.3 million backlog of rebates which had been pending prior to the passage of the
Recovery Act. In our view, the use of Recovery Act funding in this way is inappropriate in that it

                                                 2

did not advance the underlying purpose of the Recovery Act, that is, to create or save jobs.
Clearly, the solar energy system installations covered by the backlog of rebate requests, as
important as they may have been at the time, had been performed prior to the passage of the
Recovery Act.

                                         Project Selection

Florida has been unable to fully execute its SEP Recovery Act Plan, as intended. Specifically,
Florida proposed 10 Recovery Act projects in May 2009, and planned to obligate most of its
funds by January 1, 2010. Prior to approval, the National Environmental Policy Act (NEPA)
requires that agencies consider the potential environmental impacts of proposed projects,
including SEP Recovery Act projects. A number of the projects proposed by Florida either
required a lengthy NEPA review or were specifically prohibited under SEP. To compensate for
problems with initial project selection, Florida has had to change its plans to avoid delays
associated with the NEPA approval process and to replace planned projects that are specifically
prohibited. These changes have resulted in Florida missing its planned January 1, 2010, date for
obligating most of its Recovery Act funds. Both State officials and EERE management assert that
although Florida had not met its goals to obligate funds by the planned January 1, 2010, date,
it is on track to meet the Department's goals that were established in February 2010 to obligate 30
percent by March 31, 2010, and 80 percent by June 30, 2010.

As of April 1, 2010, Florida has yet to finalize its plans and as such has not received approval for
all of its projects under NEPA. Specifically, in June 2009, the Department notified Florida that 4
of the 10 proposed projects were not approved under NEPA. After it was notified, Florida
decided to scope down or modify the projects in an attempt to get them approved. Florida has
since received NEPA approval for one of these projects and two others have been conditionally
approved – needing further approval once the projects are fully developed. The remaining
project has yet to receive approval.

Notably, one of Florida's proposed projects, Shovel Ready Grants, has yet to be fully executed.
This project consists of nine separate sub-grants that could, in theory, be started quickly.
However, the Department indicated that two of these nine sub-grants proposed by Florida were
specifically prohibited under SEP regulations. Additionally, two sub-grants were cancelled after
NEPA concerns were identified, and one continues to undergo NEPA scrutiny. The other four
sub-grants, worth $7.4 million, have been approved and funded. Even though Florida submitted
these proposed sub-grants in its initial plan in May 2009, and was notified of the prohibition by
the Department shortly thereafter, as of October 2009, Florida still had not reconsidered changing
how it would use the funds. As of April 1, 2010, Florida still has not redeployed $12.1 million in
funds reserved for five of these "shovel ready" sub-grants and was still considering its options on
those sub-grants.

As of April 1, 2010, Florida had changed its plan from 10 projects to 9 by combining 2 projects
involving loan programs into one. If it successfully executes its current plan, Florida will have
$67 million obligated by April 2010, with the remaining funds obligated by the Recovery Act's
September 30, 2010, deadline. It plans to spend most of the SEP funds by June 30, 2011.

                                                 3

                                   Flow-Down Requirements

The SEP Recovery Act grant mandates that 18 requirements be passed down to program sub-
recipients. These requirements, which are critically important to ensure accountability and
transparency, are designed to help prevent or detect, in a timely manner, problems in the
administration or execution of SEP projects. However, our review of Recovery Act flow-down
requirements found that the following requirements were not included in Florida sub-recipient
agreement documents:

       Authorized representatives of the Department must be provided access to facilities,
       resources, or persons, as necessary;

       Sub-grantees or bidders are prohibited from entering into agreements with labor
       organizations;

       Revenues, obligations, and expenditures related to Recovery Act funding must be
       segregated;

       Recovery Act funds may not be used for any casino, gambling establishment, aquarium,
       zoo, golf course, or swimming pool;

       Whistleblowers must be protected;

       Recipient and sub-recipients shall promptly refer to the Department or other appropriate
       Inspector General any credible evidence that a false claim has been submitted under the
       False Claims Act; and,

       Recipients of Recovery Act funds must use American iron, steel, and manufactured
       goods, where appropriate.

After we notified Florida of these discrepancies, it took corrective action and modified its sub-
recipient documents to include these requirements.

                                   Internal Control Weaknesses

During our review of the Solar Energy System Incentives Program, we also identified other
internal control weaknesses. Specifically, an administrative staff member was performing
multiple duties, including receiving the rebate forms, recording the rebates, approving the rebates
for payment, and mailing the rebate checks. These duties should have been separated and
performed by different individuals to minimize the possibility of theft. In addition, there were no
written requirements for grant managers to review or approve the rebates prior to payment
authorization. Since the time of our review, Florida told us that it had instituted additional
controls to correct these weaknesses.




                                                 4

                                     Departmental Monitoring

The deficiencies discussed in this report occurred, at least in part, due to insufficient
Departmental monitoring. Specifically, the Department has not ensured that all of Florida's
planned activities will save or create jobs and that all targeted projects could be started
expeditiously in accordance with the Recovery Act. In addition, the Department is required to
perform monitoring of each state's SEP activities annually; however, in the case of Florida, it had
not performed on-site monitoring visits since the passage of the Recovery Act. As a result, the
Department was unable to detect the deficiencies that have occurred in Florida's contract flow-
down provisions and rebate processing controls.

The Department has not ensured that all projects chosen for SEP will create or save jobs.
Specifically, the Department's project officer told us that he did not verify the exact amount of the
backlog during his review of the Solar Energy System Incentives Program. Otherwise he would
have known that all of the Recovery Act funds were going to pay the $8.3 million backlog.
 When asked about the backlog of rebates, the project officer said that his initial assumptions
were that the funds were only going to pay a small portion to the backlog but the majority of
funds would be used for expansion of the program and payment of new rebate requests. Had the
project officer requested details regarding the backlog he would have found that none of the
funds would be used for new rebate requests. Florida has since increased the funds for this
program to $14.4 million, paying all of the backlog and new rebates that have been submitted
since the passage of the Recovery Act.

Even though the Department provided oversight and guidance to Florida on its projects, it
allowed 10 months to pass while Florida finalizes its SEP Recovery Act Plan. In May 2009,
Florida submitted its plan to the Department. In October 2009, the Department's project officer,
while performing desk monitoring, pointed out that certain Florida projects were not viable and
suggested that Florida direct its Recovery Act funds to alternative projects. However, as of
April 1, 2010, Florida had not made that change. Florida attributed the delays to the NEPA
process and to State approval requirements for grants. Given the pressing economic needs and
unemployment situations, the Recovery Act gave a preference to activities that could be started
expeditiously. While the Department has encouraged the use of "shovel ready" activities, such
activities are not always viable. Thus, ongoing monitoring by the Department is necessary to
ensure that alternatives can be quickly selected and implemented.

Timely monitoring by the Department could have discovered the deficiencies in Florida's
contract flow-down provisions and rebate processing controls. For example, Florida assumed
that it had added sufficient language in its contract clauses to address each of the 18 Recovery
Act requirements. According to Florida officials, it was not until our review that Florida
discovered that there were deficiencies. No reviews had been performed by the Department
that would identify the discrepancies in flow-down requirements and internal control
weaknesses we discovered.




                                                 5

RECOMMENDATIONS

To address the problems outlined in our report, we recommend that the Assistant Secretary,
Energy Efficiency and Renewable Energy ensure that:

    1.	 Project officers work closely with states that propose projects that may be delayed due to
        NEPA or noncompliance with regulations, to pursue other viable alternatives;

    2.	 Projects selected are meeting the Recovery Act requirement to create or save jobs;

    3.	 Flow-down requirements are properly addressed in sub-recipient award documents; and,

    4.	 Appropriate internal controls and procedures are in place to prevent inappropriate
        expenditures of Recovery Act funding.

MANAGEMENT COMMENTS

Management concurred with each of the recommendations. EERE and the Project Management
Center stated that they continue to complete actions to better manage Recovery Act requirements.
Specifically, EERE stated that it has taken action to (1) work closely with states to accelerate
NEPA determinations while developing contingency plans for alternative projects that can be
implemented quickly; (2) communicate with State Energy Offices to ensure state officials
understand that the Recovery Act has job creation as a primary objective and give preference to
activities that can be started and completed expeditiously; (3) instruct project officers to monitor
whether flow-down requirements are properly addressed in sub-recipient award documents; and,
(4) ensure appropriate, effective use of SEP Recovery Act funds by performing visits to all states,
revising reporting requirements, expanding monitoring, issuing program guidance, and putting
communication and data collection and reporting systems in place. Management's comments are
included in their entirety in Attachment 2.

Comments submitted by the State of Florida are included as Attachment 3.

AUDITOR RESPONSE

Management's comments are responsive to the recommendations.

cc: 	Deputy Secretary
     Under Secretary of Energy
     Assistant Secretary, Energy Efficiency and Renewable Energy, EE-1
     Chief of Staff
     Director, Office of Risk Management, CF-80
     Team Leader, Office of Risk Management, CF-80
     Audit Resolution Specialist, Office of Risk Management, CF-80
     Audit Liaison, Energy Efficiency and Renewable Energy, EE-3A
     Audit Liaison, National Energy Technology Laboratory


                                                 6

                                                                                    Attachment 1


                      OBJECTIVE, SCOPE, AND METHODOLOGY


OBJECTIVE

The objective of this audit was to determine whether the State of Florida's Energy Office had
internal controls in place to provide assurance that the goals of the State Energy Program (SEP)
and the American Recovery and Reinvestment Act of 2009 (Recovery Act) will be met and
accomplished efficiently and effectively.

SCOPE

The audit was performed from August 2009 to April 2010, at the Florida Energy & Climate
Commission in Tallahassee, Florida. We also obtained information from the National Energy
Technology Laboratory (NETL) in Pittsburgh, Pennsylvania. The audit scope was limited to
Florida's SEP.

METHODOLOGY

To accomplish the audit objective, we:

       Reviewed Federal regulations and Department of Energy (Department) guidance related
       to the SEP and Recovery Act;

       Reviewed State legislation related to the SEP in Florida;

       Reviewed Florida's SEP annual plan for Recovery Act funds;

       Reviewed Florida's grantee documents for recipients of Recovery Act funds;

       Held discussions with Florida Energy & Climate Commission personnel; and,

       Held discussions with program officials from NETL.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Because our review was limited, it would
not necessarily have disclosed all internal control deficiencies that may have existed at the time
of our audit. Finally, we did not rely on computer-processed data to accomplish our audit
objective.

We briefed Florida officials on April 9, 2010, and Department officials at NETL and
Washington, D.C. on April 12, 2010. An exit conference was held with Department officials on
June 1, 2010.

                                                7

                                Department of Energy
                                    Washington, DC 20585

                                         HAY 14 2010


MEMORANDUM FOR:             George Collard
                            Assistant Inspector General
                                                                            . ==
                                                                             ~


                                                       4
                             for Perfonnance Aud

FROM:                       Kathleen B. Hogan
                            Deputy Assistant Sec
                               for Energy Effici
                                                       &-    '

                            Office of Technology Development
                            Energy Efficiency and Renewable Energy

SUBJECT: 	                   Response to the Office of Inspector General Draft Report on
                             "Audit of the Department of Energy's American
                             Recovery and Reinvestment Act - Florida State Energy Program"


The Office of Energy Efficiency and Renewable Energy (EERE) appreciates the opportunity to
review the Office of Inspector General's (IG) draft audit report "Audit of the Department of
Energy's American Recovery and Reinvestment Act - Florida State Energy Program."

We concur with the recommendations as stated. EERE and the PMC will continue to oversee
that the actions described by the Florida Governor's Energy Office are followed by regular on­
site visits, desk monitoring and frequent communication. We will continue to work with Florida
to ensure their ARRA SEP programs and projects are successfuL

Should you have any questions, please contact Mark Bailey at 202-586-9424.




                              *    Printed with soy ink on recycled paper
                     Draft Response to Inspector General Audit Report: 

"Audit of the Department of Energy's American Recovery and Reinvestment Act - Florida State 

                                     Energy Program.     It 





Recommendation 1
Project officers work closely with states that propose projects that may be delayed due to
NEP A or noncompliance with regulations, to pursue other viable alternatives;

Response
Concur

Florida established the target date of January 1, 2010, by which it intended to have 100% of the
funds obligated. However, by not initially limiting projects to those that could be categorically
excluded under NEP A, that target date was overly aggressive. Energy Efficiency and Renewable
Energy (EERE) Headquarters and Project Management Center (PMC) staffs continue to work
closely with states to accelerate National Environmental Policy Act (NEP A) determinations
while developing contingency plans for alternative projects that can be implemented quickly.
The NEPA determination rate for state projects has increased dramatically due to increased staff
and contractors assigned to our NEPA review team. [No SWAT team resources have been
devoted to Florida as to NEP A issues.]
Since Florida's initial Recovery Act application submission, National Energy Technology
Laboratory (NETL) Staff and the State Energy Office (SED) have been diligent in addressing
NEPA and other hurdles to project implementation. Over 50% of the Florida projects have a
NEP A Categorical Exclusion (CX) meaning that the state has no NEPA conditions on over 50%
of their money. The Recovery Act brought a scale of funding not previously encountered by any
state energy program. The State of Florida was one of the first states to propose programs related
to biofuel production (under the Shovel Ready Grants market title) in the Southeast U.S. Florida
SED's close contact with the project officer and the NEPA compliance officer in addressing the
biofuel project approvals informed the development of an efficient and effective NEP A review
and approval process for all State applications. EERE saw that it was necessary to augment
DOE resources to address the immediate and surge requirements. The State of Florida, the
project officer, and these additional DOE experts available to Federal and state personnel worked
collaboratively to address concerns, including: Federal regulatory review, the Florida internal
 approval processes (Florida Energy & Climate Commission) grant sub-recipient and stakeholder
 interests. [There were no additional NEP A staff devoted to Florida; the issues listed above are
 unrelated to NEP A. Funds can be obligated by the state with NEPA conditions -- and the state
 is still pursuing projects that require EAs or EISs. The problems Florida experienced were
 mostly unrelated to NEPA.]
With this collaborative approach, the team has been able to address and manage the Florida SEO
projects and learn how to revise projects to better meet Recovery Act requirements. As part of
the EERE requirements for a rigorous monitoring process, the project officer also facilitates
weekly project update calls with Florida and all other assigned states to monitor performance and
provide assistance as needed. The Department has sent all states a letter with suggested
program area, e.g. appliance rebates, that funding could be transferred to ifNEPA review
prohibits a selected project.

Estimated Completion Date: Ongoing and continuous.

Recommendation 2
Projects selected are meeting the Recovery Act requirement to create or save jobs;

Response
Concur

Section 3 (a) of the Recovery Act states: "The purposes of this Act include the following: (1) To
preserve and create jobs and promote economic recovery ..." To meet this objective, the DOE
continuously interacts with State Energy Offices via weekly calls by project officers, frequent
calls by Senior Management to ensure SEO's have the tools needed to cost their money, Senior
Management visits, through program guidance and through communication tools to ensure state
officials understand that the Recovery Act has job creation as a primary objective and gives
preference to activities that can be started and completed expeditiously. To address the Act's
objectives, DOE gave preference to projects that quickly enhanced job creation,job preservation
and economic recovery. SEP Program Notice 09-01, the 2009 SEP Formula Grant Guidance for
ARRA and Regular Appropriations, all strongly encourage the states to allocate their Recovery
Act funds to projects and programs with a high potential for job creation and energy savings.
DOE's SEP project officers continue to work with the states to assist them in implementing high
impact programs so that Recovery Act funds are used effectively as well as expeditiously.

With regard to the instant audit finding and recommendation, the Department concurs that we
need continuous oversight rigor to ensure that projects funded via the Recovery Act meet the
purposes of the Act. To ensure that proper rigor is observed, EERE WIP has produced a
Monitoring Plan and Guidance Manual, which, along with related monitoring checklists, details
the precision expected from Federal staff responsible for administering Recovery Act funds.

The State Energy Program guidance and Monitoring plan can be accessed at
wwwl.eere.energy.gov/wip/guidance.html and
www.l.eere.energy.gov/wip/pdfs/monitoring-p1an.pdf

Estimated Completion Date: Completed
Recommendation 3
Flow-down requirements are properly addressed in sub-recipient award documents

Response
Concur

The objectives of our monitoring program include providing quality assurance in the
administration of grants for the State Energy Program. The DOE project officers have already
begun weekly, monthly and quarterly desktop monitoring of their assigned state energy offices.
Project officers have been instructed to monitor whether flow-down requirements are properly
addressed in sub-recipient award documents. EERE and PMC staffs are scheduled to begin on­
site monitoring on May 24, 2010 for the State of Florida Energy Office Recovery Act projects.
EERE will notifY each ofthe Project Management Centers of these findings and take necessary actions to
ensure that States are fully aware of the flow-down requirements. These actions wilt include both a
written reminder to each State and compliance reminder during the PMC Project Officer's weekly grantee
calls.

Estimated Completion Date: Completed and ongoing

Recommendation 4
Appropriate internal controls and procedures are in place to prevent inappropriate expenditures
of Recovery Act funding.

Response
Concur

Even before final passage of the Recovery Act, DOE began to assess and strengthen the internal
controls and review procedures that would apply to those funds. Senior Management performed
"'preparedness visits" to all states to work with states to ensure that they were ready to manage
and execute on greatly increased program funding. Reporting requirements have been revised to
gather additional information from the states more frequently. Monitoring procedures and
frequency have been significantly expanded as well. Additional SEP project officers, field
liaisons and monitoring personnel have been brought on board at HQ and the PMC, to enable
DOE to work more closely with individual states. These measures, along with robust Program
guidance, communication and data collection and reporting systems and structures have been put
in place to ensure appropriate, effective use of SEP Recovery Act funds. We will continue to
assess and strengthen our internal controls as well as the states management controls as
necessary.

Estimated Completion Date: Completed and ongoing
                                         May 12, 2010

Mr. Rickey R. Hass
Deputy Inspector General for Audit Services
Department of Energy Office of Inspector General
Washington, DC 20585

RE:	   Comments on draft report, “Audit of the Department of Energy’s
       American Recovery and Reinvestment Act (ARRA) – Florida State Energy
       Program”. (508 VERSION NO SIGNATURE)

Dear Mr. Hass:

Thank you for the opportunity to review and provide comment on the accuracy and completeness
of the information contained in the above referenced draft report. In response to the program
issues outlined, please consider the following information.

                          Solar Energy System Incentives Program

           •	 Since 2007, the Solar Rebate Program has been a Department-approved measure
              under the State Energy Program. This approval predates the advent of ARRA.
           •	 As acknowledged in the audit report, it is important to note that Florida
              undertook this action with the Department of Energy’s (DOE) approval.
           •	 It is important to consider that the Solar Rebate Program has been an
              acknowledged catalyst in the growth of the solar industry in Florida and the
              significant impact it continues to make on the State’s economy.

                                       Project Selection

           •	 Florida has established a number of internal goals since the advent of ARRA.
              Internal goals were established in order to set priorities and organize the multiple
              tasks associated with allocating the increased amount of funding and are ever-
              changing. More important, and relevant to the discussion, is the fact that Florida
              is on track to meet DOE’s goals for obligating funds.
           •	 While Florida received initial approval of its overall SEP plan in July 2009, most
              of the individual programs remained in a “prohibited” status under the Special
              Terms and Conditions of the Agreement pending additional eligibility and
              environmental review.
           •	 Unlike a number of states that have elected to focus on a few SEP programs,
              Florida has elected to pursue a broad portfolio of new programs that address a
              wide range of sectors. DOE representatives have previously endorsed this
              approach as furthering the “market transformation” that is a key element of SEP.
           •	 The allocation of SEP funding is subject to the review and oversight of the
              Florida Energy and Climate Commission, established in 2008 under Section
              377.6015 of the Florida Statutes.
           •	 The Commission is a volunteer, part-time body that meets on monthly basis. The
              Commission is subject to Florida’s rigorous Open Government and procurement
              laws.
            •	 The Shovel-Ready Grants have proven challenging for all parties. Due to the
               nature of the projects, DOE and the State have engaged in extensive reviews.
               The evolving nature of ARRA’s eligibility requirements has also had an impact.
               For example, one of the grant proposals was approved by DOE in October 2009,
               only to be reversed in December 2009.

                                  Flow-Down Requirements

            •	 Florida maintains that the majority of the flow-down requirements were
               contained in the agreement documents.
            •	 As acknowledged by DOE, Florida has taken additional action to clarify the
               flow-down requirements within the agreement documents.

                                 Internal Control Weaknesses

            •	 The Florida Energy Office has historically had a small staff that necessitated
               some individuals to perform multiple duties specifically regarding the
               administration of the Solar Energy Rebate Program.
            •	 The audit doesn’t recognize the oversight roles performed by the EOG
               Administration Office and Florida Department of Financial Services who provide
               additional review prior to releasing funds.
            •	 The addition of staff has enabled Florida to segregate duties, strengthen internal
               controls and significantly minimize the opportunities for fraud, waste and/or
               abuse of the funds.

                                   Departmental Oversight

            •	 Florida believes that it has an effective working relationship with DOE project
               officers and is committed to continuing to work with DOE staff to resolve
               outstanding issues and move forward.

The Energy Office is committed to its role of ensuring that the goals of the State Energy Program
(SEP) and the American Recovery and Reinvestment Act of 2009 (Recovery Act) will be met and
accomplished efficiently, effectively and in compliance with all applicable laws and regulations.
If you have any questions regarding any of these issues, please do not hesitate to contact me at
(850) 487-3800.

                                                Sincerely,


                                                Robert Vickers, Executive Director
                                                Governor’s Energy Office/Florida Energy &
                                                 Climate Commission

RV/gs
cc:	  Jason Kirkham, US Department of Energy Auditor in Charge
      Kim Mills, Governor’s Office of the Chief Inspector General
                                                                  IG Report No: OAS-RA-10-12

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.	 What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding this
    report?

2.	 What additional information related to findings and recommendations could have been
    included in the report to assist management in implementing corrective actions?

3.	 What format, stylistic, or organizational changes might have made this report's overall
    message more clear to the reader?

4.	 What additional actions could the Office of Inspector General have taken on the issues
    discussed in this report which would have been helpful?

5.	 Please include your name and telephone number so that we may contact you should we have
    any questions about your comments.


Name 	                                        Date

Telephone	                                    Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
